Audit Report




OIG-12-030
Audit of the Bureau of Engraving and Printing’s Fiscal Years
2011 and 2010 Financial Statements
December 16, 2011




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 16, 2011


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                            BUREAU OF ENGRAVING AND PRINTING

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Bureau of Engraving and Printing’s
                                    Fiscal Years 2011 and 2010 Financial Statements

            I am pleased to transmit the attached audited Bureau of Engraving and Printing
            (BEP) financial statements for fiscal years 2011 and 2010. Under a contract
            monitored by the Office of Inspector General, KPMG LLP, an independent certified
            public accounting firm, performed an audit of the financial statements of BEP as of
            September 30, 2011 and 2010 and for the years then ended. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget
            Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. KPMG LLP also found that management’s assertion that BEP maintained
            effective internal control over financial reporting as of September 30, 2011 was
            fairly stated in all material respects. However, KPMG LLP identified an internal
            control deficiency related to year end liability accruals that was considered a
            significant deficiency. Further, KPMG LLP found no instances of reportable
            noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated December 14, 2011 discussing
            certain matters involving internal control over financial reporting and its operation
            that were identified during the audit but were not required to be included in the
            auditors’ reports. This letter will be transmitted separately.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express,
opinions on BEP’s financial statements or BEP management’s assertion on the
effectiveness of internal control over financial reporting, or a conclusion on
compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated December 14, 2011 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audits at
(202) 927-5407.

Attachment
 THE DEPARTMENT OF THE TREASURY
BUREAU OF ENGRAVING AND PRINTING


           Financial Statements


 Years ended September 30, 2011 and 2010


(With Independent Auditors’ Reports Thereon)
                                         THE DEPARTMENT OF THE TREASURY
                                        BUREAU OF ENGRAVING AND PRINTING
                                                 FINANCIAL STATEMENTS
                                     FOR THE YEARS ENDED SEPTEMBER 30, 2011 AND 2010

                                                                   TABLE OF CONTENTS




INDEPENDENT AUDITORS’ REPORT ................................................................................................................. 1


FINANCIAL STATEMENTS ................................................................................................................................... 2

     Balance Sheets ....................................................................................................................................................... 2
     Statements of Operations and Cumulative Results of Operations ......................................................................... 3
     Statements of Cash Flows ...................................................................................................................................... 4
     Notes to the Financial Statements .......................................................................................................................... 5

MANAGEMENT’S REPORT
  ON INTERNAL CONTROL OVER FINANCIAL REPORTING ................................................................ 15

INDEPENDENT AUDITORS’ REPORT
   ON INTERNAL CONTROL OVER FINANCIAL REPORTING ................................................................ 16

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE
   AND OTHER MATTERS ................................................................................................................................ 19
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                                        Independent Auditors’ Report


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the accompanying balance sheets of the Bureau of Engraving and Printing (the Bureau)
as of September 30, 2011 and 2010, and the related statements of operations and cumulative results of
operations, and cash flows (hereinafter referred to as “financial statements”) for the years then ended.
These financial statements are the responsibility of the Bureau’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Bureau of Engraving and Printing as of September 30, 2011 and 2010, and the
results of its operations, and its cash flows for the years then ended in conformity with U.S. generally
accepted accounting principles.

We have also examined in accordance with attestation standards established by the American Institute of
Certified Public Accountants, and the standards applicable to attestation engagements contained in
Government Auditing Standards, issued by the Comptroller General of the United States, management’s
assertion, included in the accompanying Management’s Report on Internal Controls Over Financial
Reporting, that the Bureau maintained effective internal control over financial reporting as of September
30, 2011, and have issued our report thereon dated December 14, 2011. That report is an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in assessing the results of our fiscal year 2011 audit.

In accordance with Government Auditing Standards, we have also issued our report dated December 14,
2011, on our tests of the Bureau’s compliance with certain provisions of laws, regulations, contracts, and
other matters. The purpose of that report is to describe the scope of our testing of compliance and the
results of that testing, and not to provide an opinion on compliance. That report is an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in assessing the results of our fiscal year 2011 audit.



December 14, 2011
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                             THE DEPARTMENT OF THE TREASURY
                            BUREAU OF ENGRAVING AND PRINTING
                                           Balance Sheets
                                  As of September 30, 2011 and 2010


                                                                             (In Thousands)
                                                                      2011                    2010

ASSETS
Current assets
    Cash (Note 3)                                           $          130,178     $           153,662
    Accounts receivable (Note 10)                                       38,436                  28,622
    Inventories, net (Note 4)                                          148,826                 140,229
    Prepaid expenses                                                     3,698                   3,908
Total current assets                                                   321,138                 326,421
Property and equipment, net (Note 5)                                   381,507                 346,358
Other assets, net (Note 6)                                              20,220                  16,706
Total assets                                                $          722,865     $           689,485

LIABILITIES AND EQUITY
Liabilities
Current liabilities (Notes 7 and 8)
    Accounts payable                                        $           33,683     $            20,044
    Accrued liabilities                                                 35,949                  33,513
    Advances                                                             8,460                  11,321
Total current liabilities                                               78,092                  64,878
Workers’ compensation liability (Note 8)                                62,423                  58,835
Total liabilities                                                      140,515                 123,713
Contingencies and commitments (Notes 12 and 13)
Equity
   Invested capital                                                     32,435                  32,435
   Cumulative results of operations                                    549,915                 533,337
Total equity                                                           582,350                 565,772
Total liabilities and equity                                $          722,865     $           689,485


See accompanying notes to the financial statements.




                                                  2
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING
                                 Statements of Operations and
                                Cumulative Results of Operations
                       For the Years Ended September 30, 2011 and 2010


                                                                       (In Thousands)
                                                              2011                      2010

Revenue from sales (Note 10)                           $           548,094   $           631,422
Cost of goods sold                                                 442,769               508,832
Gross margin                                                       105,325               122,590
Operating costs:
     General and administrative expenses                            80,433                67,448
     Research and development                                        8,314                11,714
                                                                    88,747                79,162
Excess of revenues over expenses                                    16,578                43,428
Cumulative results of operations at beginning of
year                                                               533,337               489,909
Cumulative results of operations at end of year        $           549,915   $           533,337


See accompanying notes to the financial statements.




                                                   3
                                   THE DEPARTMENT OF THE TREASURY
                                  BUREAU OF ENGRAVING AND PRINTING
                                             Statements of Cash Flows
                                  For the Years Ended September 30, 2011 and 2010


                                                                                        (In Thousands)
                                                                                2011                     2010

Cash flows from operating activities
Excess of revenues over expenses                                        $            16,578   $            43,428
   Adjustments to reconcile excess of revenues over expenses
        to net cash provided by operating activities:
        Depreciation                                                                 32,566                27,759
        Loss from inventory obsolesence                                                 720                   917
        Loss from disposal of property and equipment                                     53                    —
   Changes in assets and liabilities
        (Increase) decrease in accounts receivable                                  (9,814)                   367
        (Increase) decrease in inventories                                          (8,729)                 8,954
        Decrease in prepaid expenses                                                    210                 1,351
        Increase in other assets                                                    (4,102)               (1,176)
        Increase in accounts payable                                                13,639                  3,106
        Increase (decrease) in accrued liabilities                                    2,436               (4,500)
        Decrease in advances                                                        (2,861)               (2,744)
        Increase in workers’ compensation liability                                   3,588                 2,868
                  Net cash provided by operating activities                          44,284                80,330
Cash flows from investing activities
Purchases of property and equipment                                             (67,768)                 (66,188)
                  Net cash used in investing activities                         (67,768)                 (66,188)
Net increase (decrease) in cash                                                 (23,484)                   14,142
Cash at beginning of year                                                           153,662               139,520
Cash at end of year                                                     $           130,178   $           153,662


See accompanying notes to the financial statements.




                                                    4
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                 September 30, 2011 and 2010



1. Reporting Entity

The Bureau of Engraving and Printing (Bureau), a component of the United States (U.S.)
Department of the Treasury, is the U.S. Government's security printer. The Bureau designs and
produces U.S. currency. The Bureau also advises and assists federal agencies in the design and
production of other U.S. Government documents requiring counterfeit deterrence or secure
production.

The Bureau operates under basic authorities conferred by the Act of July 11, 1862, (12 Stat. 532;
also, 31 U.S.C. 5114) and other laws and regulations. In accordance with the provisions of
Public Law 81-656, effective August 4, 1950, the operations of the Bureau are financed by
means of a revolving fund. This fund is reimbursed through billings to the Bureau's customers
for products delivered. Public Law 95-81 authorized the Bureau to include in its product prices
an amount to provide funding for the acquisition of capital equipment and future working
capital. Invested capital represents the historical value of the initial contribution made by the
Federal Government.

The financial statements represent the consolidation of two federal revolving funds. The
majority of all financial transactions are contained in the Bureau of Engraving and Printing
Revolving Fund, which finances Bureau operations. The other revolving fund, the Mutilated
Currency Revolving Fund, is used to redeem damaged paper currency received from the public.
All significant balances and transactions between the funds have been eliminated in
consolidation.

2. Summary of Significant Accounting Policies

Basis of Accounting

The Bureau has historically prepared its financial statements in conformity with U.S. generally
accepted accounting principles (GAAP), based on accounting standards issued by the Financial
Accounting Standards Board (FASB), the private-sector standards-setting body. Under such
standards, the Bureau prepares its financial statements using the full accrual basis of accounting
under which revenues are recognized when earned and expenses are recognized as incurred,
regardless of when cash is exchanged.

The Federal Accounting Standards Advisory Board (FASAB) has been designated by the
American Institute of Certified Public Accountants as the standards-setting body for financial
statements of Federal Government entities, with respect to the establishment of GAAP. FASAB
has indicated, however, that financial statements prepared based upon accounting standards
published by the FASB may also be regarded as in conformity with GAAP for those federal
agencies, such as the Bureau, that have issued financial statements based upon FASB accounting
standards in the past. Accordingly, consistent with historical reporting, the Bureau’s financial
statements are presented in accordance with accounting standards published by the FASB.


                                                5
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                  September 30, 2011 and 2010

Estimates

The preparation of financial statements in accordance with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and related
revenues and expenses. Those estimates most significant to the Bureau’s financial statements are
the actuarial estimates made by the Department of Labor (DOL) in arriving at the liabilities for
workers’ compensation, allowances for obsolescence, the useful lives of property and equipment,
the likelihood of losses associated with contingent liabilities, and certain accrued expenses at the
date of the financial statements. Such estimates and assumptions could change in the future as
more information becomes known, which could impact the amounts reported and disclosed
herein.

Cash

Cash represents the aggregate amount of the Bureau’s funds held on deposit with the U.S.
Treasury and are available to pay liabilities.

Inventories

Raw material and supply inventories are stated at standard cost, except for one advanced
counterfeit deterrent material, which is valued using the first-in-first-out (FIFO) method.
Finished goods inventories are stated at weighted average unit cost. All methods approximate
actual cost. Cost elements included in work-in-process and finished goods inventories are direct
materials, direct labor, manufacturing overhead and manufacturing support.

Property and Equipment

Property and equipment are recorded at cost. Major alterations and renovations are capitalized,
while maintenance and repair costs are charged to expense as incurred. The capitalization
threshold is $50,000. The Bureau capitalizes all cost associated with new construction and
building improvements.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The Bureau is not charged for the use of the buildings or land, but is responsible for maintenance
and repair of all buildings and land improvements. The land and building shell for the Bureau's
Western Currency Facility were donated by the City of Fort Worth, Texas to the Department of
the Treasury (See Note 5).

Depreciation of property and equipment is calculated using the straight-line method over the
following estimated useful lives:

        Machinery and equipment                                            3 - 15 years
        Building improvements                                              3 - 40 years
        Information technology (IT) equipment and software                 3 - 5 years
        Office machines                                                    5 - 10 years
        Furniture and fixtures                                             5 - 10 years
        Motor vehicles                                                     3 - 9 years

                                                 6
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                  September 30, 2011 and 2010

Other Assets

Other assets consist principally of machine repair parts and tools, which are used in the
production of the Bureau's products. Other assets are stated at standard cost, which
approximates actual cost, net of a reserve for obsolescence.

Employee Retirement Plans

Bureau employees participate in the contributory Civil Service Retirement System (CSRS) or
Federal Employees' Retirement System (FERS), to which the Bureau and employees make
contributions according to plan requirements. Consistent with reporting under multi-employer
pension plans, the Bureau does not report CSRS and FERS assets, accumulated plan benefits or
future liabilities, if any, applicable to its employees. This data is reported for plan participants
by the Office of Personnel Management (OPM).

Postretirement Benefits Other than Pensions

Postretirement benefits for former Bureau employees, specifically health care costs and life
insurance, are administered and paid by OPM through appropriations received from the U.S.
Government. The Bureau does not reimburse OPM for these payments. The Bureau's financial
statements do not include the cost of employee postretirement benefits paid by OPM, or the
actuarial liability for such benefits.

Workers’ Compensation Costs

The Federal Employee Compensation Act (FECA) provides income and medical cost protection
to covered federal civilian employees injured on the job, employees who have incurred a
work-related occupational disease and beneficiaries of employees whose death is attributable to
a job-related injury or occupational disease. Claims incurred for benefits for the Bureau's
employees under FECA are administered by DOL and are ultimately paid by the Bureau.

The FECA liability consists of two components. The first component, the accrued FECA
liability, is based on actual claims paid by DOL but not reimbursed by the Bureau. The Bureau
reimburses DOL for the amount of actual claims normally within one to two years after payment
is made by DOL. As a result, the Bureau recognizes a current and non-current liability for actual
claims paid by DOL, to be reimbursed by the Bureau.

The second component, the actuarial FECA liability, is the estimated liability for future benefit
payments. These future workers' compensation estimates were generated from an application of
actuarial procedures developed to estimate the liability for future FECA benefits. The actuarial
liability for future worker's compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component
for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. These annual benefit payments have been discounted to present
value using the Office of Management and Budget’s (OMB) economic assumptions for 10-year
Treasury notes and bonds, which resulted in discount rates as of September 30, 2011 and 2010,
                                                 7
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                   September 30, 2011 and 2010

of 3.54% and 3.65% in year one and 4.03% and 4.30% thereafter. The Department of the
Treasury allocated the overall liability to Treasury components based on past claims paid
information provided by DOL. The use of these rates approximates the use of average historical
rates on marketable Treasury securities with maturities consistent with the projected benefit
payments.

Annual, Sick, and Other Leave

Annual leave is accrued as a liability when earned and the accrual is reduced as leave is taken.
The balance in this accrued liability account reflects current pay rates.

Sick leave and other types of non-vested leave are expensed as the leave is taken.

Revenue Recognition

Revenue from sales to the Federal Reserve Board is recognized when finished goods
satisfactorily pass all Bureau quality control standards and are delivered to the on-site Federal
Reserve Depository vaults. Finished goods are released for shipment in accordance with
customer requirements. Revenue from the sale of uncut currency to the public is recognized at
the time the product is shipped. The Bureau does not record an allowance for returns because of
a historically negligible return rate.

Research and Development Costs and Public Education (Advertising) Costs

Research and development costs and public education costs are expensed as incurred. Public
education costs, which are reported in cost of goods sold, amounted to $3.1 million and
$15.9 million in the years ended September 30, 2011 and 2010, respectively.

Tax Status

The Bureau is a federal entity, and therefore is not subject to federal, state, or local income taxes.
Accordingly, no provision for income taxes is made in the accompanying financial statements.

Contingencies

Liabilities from loss contingencies arising from claims, assessments, litigation, fines and
penalties, and other sources, are recorded when it is probable that a liability has been incurred
and the amount of the assessment and/or remediation cost can be reasonably estimated. Loss
contingencies that do not meet these criteria, but are reasonably possible and estimable are not
accrued, but are disclosed in Note 12.

Fair Value Measurements

ASC 820-10, Fair Value Measurements and Disclosures, establishes a fair value hierarchy that
prioritizes the inputs to valuation techniques used to measure fair value. The Bureau’s financial
instruments are comprised of cash, accounts receivable, accounts payable, accrued liabilities,
and advances as of September 30, 2011 and 2010, respectively. The carrying amounts of these
                                                  8
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                   September 30, 2011 and 2010

financial instruments approximate fair value because of the short-term nature of these
instruments. The Bureau holds no financial instruments that are required by ASC 825-10 to be
valued at, reported, or disclosed at fair value as of September 30, 2011 or 2010.

3. Cash

The year-end cash balances by fund are as follows as of September 30, 2011 and 2010:

                                                                        (In Thousands)
                                                                      2011          2010

 Bureau of Engraving and Printing
   Revolving Fund                                                   $ 126,264     $ 146,885
 Mutilated Currency Revolving Fund                                      3,914         6,777
 Total                                                              $ 130,178     $ 153,662


The balance in the mutilated currency revolving fund, consisting of processed claims for
mutilated currency submitted by the public for redemption, is offset by a liability to the public
which is included in advances on the balance sheets as of September 30, 2011 and 2010,
respectively (See Note 7).

4. Inventories, net

Inventories consist of the following as of September 30, 2011 and 2010:

                                                                         (In Thousands)
                                                                      2011           2010
 Raw material and supplies                                          $ 46,429       $  54,344
 Work-in-process                                                       40,203         45,489
 Finished goods - currency                                             48,270         26,154
 Finished goods - uncut currency                                       13,924         14,242
 Total                                                              $ 148,826      $ 140,229

The allowance for inventory obsolescence was $952 thousand and $820 thousand, at
September 30, 2011 and 2010, respectively.

In 2010, the Bureau adjusted (wrote down) the value of its currency paper and work-in-process
inventories relating to the redesigned $100 notes due to a problem with intermittent creasing that
is occurring during intaglio printing that is resulting in abnormally high spoilage. The services
of an appraiser were not used. This adjustment resulted in the recognition of a loss of $840
thousand in 2010. This adjustment is included in the cost of goods sold on the Statement of
Operations.



                                                9
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2011 and 2010

5. Property and Equipment, net

Property and equipment consist of the following as of September 30, 2011 and 2010:

                                                                        (In Thousands)
                                                                     2011           2010

 Machinery and equipment                                           $ 477,455     $ 471,129
 Building and land improvements                                      234,314       234,284
 IT equipment and software                                            56,821        46,456
 Office machines                                                       2,791         2,752
 Furniture and fixtures                                                1,272         1,222
 Donated assets - art work                                               125           125
 Motor vehicles                                                          212           212
                                                                     772,990       756,180
 Less accumulated depreciation                                       512,831       481,858
                                                                     260,159       274,322
 Construction-in-progress                                            121,348        72,036
 Net property and equipment                                        $ 381,507     $ 346,358

Depreciation expense for the years ended September 30, 2011 and 2010 was $32.6 million and
$27.8 million, respectively.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The land and building shell for the Fort Worth, Texas facility were donated by the City of Fort
Worth to the Department of the Treasury in 1987, which holds the title thereto. At the time of
donation, the land had an appraised value of $1.5 million and the building shell cost was
$5.6 million. In accordance with the provisions of Public Law 81-656, Bureau financial
statements include only the costs to build out the facility.

6. Other Assets, net

Other assets consist principally of machine repair parts and tools. The allowance for
obsolescence for these parts and tools for the years ended September 30, 2011 and 2010 was
$5.9 million and $5.4 million, respectively.




                                              10
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2011 and 2010

7. Current Liabilities

All current liabilities are funded and consist of the following as of September 30, 2011 and
2010:
                                                                       (In Thousands)
                                                                    2011            2010

 Intragovernmental                                                  $ 10,084         $  9,731
 With the public                                                      68,008           55,147
 Total                                                              $ 78,092         $ 64,878

 Accrued current liabilities consist of the following as of September 30, 2011 and 2010:

                                                                           (In Thousands)
                                                                        2011            2010

 Payroll                                                            $ 17,591         $ 15,619
 Annual leave                                                         11,591           11,676
 Workers' compensation                                                 5,270            5,146
 Other                                                                 1,497            1,072
 Total                                                              $ 35,949         $ 33,513

 Advances consist of the following as of September 30, 2011 and 2010:

                                                                           (In Thousands)
                                                                        2011            2010

 Other Federal Agencies                                             $     4,513      $  4,537
 Mutilated Currency                                                       3,914         6,777
 Public sales                                                                33             6
 Total                                                              $     8,460      $ 11,321


8. Workers’ Compensation Liability

Claims incurred and paid by DOL as of September 30, 2011 and 2010, but not yet reimbursed to
DOL by the Bureau, are approximately $12.3 million and $12.1 million, of which approximately
$5.3 million and $5.1 million represent a current liability, as of September 30, 2011 and 2010,
respectively. The Bureau will reimburse DOL for these claims in the next two years. The
Bureau's estimated non-current, actuarially derived future workers’ compensation liability was
approximately $55.4 million and $51.8 million as of September 30, 2011 and 2010, respectively.
The Bureau’s estimated, undiscounted, non-current, actuarially derived future workers’
compensation liability was approximately $87.5 million and $84.1 million as of September 30,
2011 and 2010, respectively.


                                               11
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2011 and 2010

9. Employee Retirement Plans and Postretirement Benefits Other than Pensions

Employer contributions to the retirement plans were $17.9 million and $17.0 million for 2011
and 2010, respectively. The CSRS employer contribution rate for fiscal years 2011 and 2010
was 7.0%. The FERS agency contribution rate was 11.7% and 11.2% for fiscal years 2011 and
2010, respectively. The cost of providing the CSRS and FERS benefits is more than the
amounts contributed by the Bureau and the employees to OPM. The additional cost of providing
benefits, including the cost financed by OPM, which is not included in the Bureau's Statements
of Operations, totaled $26.5 million and $26.7 million in 2011 and 2010, respectively.

OPM paid costs totaling $11.2 million and $11.1 million for the Federal Employees Health
Benefits Program (FEHBP) and Federal Employees Group Life Insurance (FEGLI) programs in
2011 and 2010, respectively. These costs are not included in the Bureau's Statements of
Operations. The Bureau paid costs totaling $14.1 million and $13.0 million for the FEHBP and
FEGLI programs in 2011 and 2010, respectively.

10. Related Party Transactions and Concentration of Revenue

The Bureau’s principal customers are other federal and quasi-federal governmental
organizations. During 2011 and 2010, the Bureau’s sales revenue from these organizations as
well as the outstanding amounts due from them as of September 30, 2011 and 2010, are reflected
in the following table:
                                         Revenue                  Accounts Receivable
                                      (In Thousands)                 (In Thousands)
                                  2011            2010          2011                2010
 Federal Reserve Board:
  Currency Production          $ 523,009         $ 614,860          $ 36,993          $ 27,220
  Mutilated Currency               3,472             3,547               873               869
 Other Federal Agencies            3,291             3,752               126               106
                                 529,772            622,159           37,992            28,195

 Public sales                     18,320              8,555               56                 6
 Other                                 2                708              388               421
                                  18,322              9,263              444               427

 Total                         $ 548,094         $ 631,422          $ 38,436          $ 28,622

Revenues from other federal agencies are derived principally from the sale of security printing
products to U.S. Government agencies and related fees charged.

Substantially all products are sold on a fixed price basis. When the revenue from such pricing is
not sufficient to cover all costs and provide for necessary working capital the Bureau will
negotiate with the Federal Reserve Board for an additional surcharge. The required surcharge

                                               12
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                  September 30, 2011 and 2010

totaled approximately $97.8 million and $211.9 million in 2011 and 2010, respectively. This
amount is included in Revenue on the Statement of Operations.

11. Principal Suppliers

The Bureau is dependent upon sole suppliers for distinctive currency paper and several advanced
counterfeit deterrent materials.

12. Commitments and Contingencies

The Bureau is a party in various administrative proceedings, legal actions, and claims brought
against the Federal Government by employees, contractors, and other parties. As of
September 30, 2011 and 2010, there are no contingencies for litigation involving the Bureau,
where the risk of loss is probable. Contingencies, where the risk of loss is reasonably possible,
are approximately $4.0 million and $2.9 million as of September 30, 2011 and 2010,
respectively. Since the risk of loss for these litigations is not probable, the Bureau did not record
any liability. Management believes that the ultimate resolution of these litigations will not have a
material impact on the reported financial position, results of operations, and cash flows.

In 2007, a judge ruled that the current U.S. currency design violates Section 504 of the
Rehabilitation Act. The Court awarded no monetary damages. However, the Bureau is required
to provide meaningful access to United States currency for blind and other visually impaired
persons as part of the next currency redesign. The cost of currency changes necessary to provide
meaningful access will be incorporated into future currency redesign costs. No costs have been
accrued in the accompanying financial statements as of September 30, 2011 and 2010.

The Bureau has contracted to purchase three large finishing presses, incorporating automated
inspection and packaging capability, costing approximately $53.0 million. As of September 30,
2011, the Bureau has made cumulative payments of $30.8 million and the remaining
commitment outstanding is $22.2 million. Delivery of the presses will be determined upon
successful completion of final factory inspection tests. Progress payments related to the above
contract is included in construction-in-progress within Property and Equipment on the balance
sheets as of September 30, 2011 and 2010, respectively.

The Bureau does not carry commercial insurance on its physical assets because by law the
Federal Government is self-insured.

13. Operating Lease

In 2002, the Bureau entered into a cancelable operating lease for warehouse space that expires in
2012. The operating lease for warehouse space was renewed in 2011 for an additional 10 years
and will expire in 2022.

Rental expense for the years ended September 30, 2011 and 2010 was $1.9 million and
$1.8 million, respectively.



                                                 13
                       THE DEPARTMENT OF THE TREASURY
                      BUREAU OF ENGRAVING AND PRINTING

                              Notes to the Financial Statements

                                September 30, 2011 and 2010


Future minimum payments under the lease as of September 30, 2011, are (in thousands):

            For the years ending September 30:
                    2012                                          $  2,451
                    2013                                             3,039
                    2014                                             3,051
                    2015                                             3,064
                    2016                                             3,077
                    Thereafter                                      17,157
                               Total                              $ 31,839

14. Subsequent Events

The Bureau has evaluated subsequent events through December 14, 2011, the date which the
financial statements were available to be issued. There were no material events that required
additional accruals or disclosures.




                                             14
                            DEPARTMENT OF THE TREASURY
                             BUREAU OF ENGRAVING AND PRINTING
                                      WASHINGTON, D.C. 20228



                   Management's Report on Internal Control Over Financial Reporting

We as management of the Bureau of Engraving and Printing (Bureau) are responsible for establishing and
maintaining adequate internal control over financial reporting and for our assertion on the effectiveness of
internal control over financial reporting. The Bureau's internal control over financial reporting is
designed to provide reasonable assurance regarding the reliability of financial reporting and the preparation
of financial statements for external purposes in accordance with U.S. generally accepted accounting
principles.
The Bureau's internal control over financial reporting includes those policies and procedures that:
•   pertain to the maintenance of records that, in reasonable detail, accurately and fairly reflect our
    transactions and dispositions of the assets of the Bureau;
•   provide reasonable assurance that our transactions are recorded as necessary to permit preparation of our
    financial statements in accordance with U.S. generally accepted accounting principles, and that receipts
    and expenditures of the Bureau are being made in accordance with authorizations of management of
    the Bureau and those charged with governance; and
•   provide reasonable assurance regarding prevention, or timely detection and correction of unauthorized
    acquisition, use, or disposition of the Bureau's assets that could have a material effect on the financial
    statements.
Because of its inherent limitations, internal control over financial reporting may not prevent or detect
misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to the risk
that internal controls may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate.
We assessed the effectiveness of the Bureau's internal control over financial reporting as of September
30, 2011. In making this assessment, the Bureau used the criteria established in the Internal Control
Integrated Framework issued by the Committee of Sponsoring Organizations of the Treadway
Commission (COSO).
Based on our assessment and those criteria, we conclude that the Bureau maintained effective internal
control over financial reporting as of September 30, 2011.
KPMG LLP, an independent public accounting firm, has issued their reports, included herein, on (1) our
financial statements; (2) our compliance with certain provisions of laws, regulations, and contracts and
other matters; and (3) our assertion on the effectiveness of internal control over financial reporting.




       Larry R. Felix                                      Leonard R. Olijar
         Director                                       Chief Financial Officer

December 14, 2011

                                                       15
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389



            Independent Auditors’ Report on Internal Control Over Financial Reporting


To the Inspector General, Department of the Treasury, and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have examined management’s assertion, included in the accompanying “Management’s Report on
Internal Control Over Financial Reporting,” that the Bureau of Engraving and Printing (Bureau)
maintained effective internal control over financial reporting as of September 30, 2011, based on the
criteria established in Internal Control – Integrated Framework issued by the Committee of Sponsoring
Organizations of the Treadway Commission (COSO). The Bureau’s management is responsible for
maintaining effective internal control over financial reporting, and for its assertion on the effectiveness of
internal control over financial reporting, included in the accompanying “Management’s Report on Internal
Control Over Financial Reporting.” Our responsibility is to express an opinion on management’s assertion
based on our examination.

We conducted our examination in accordance with attestation standards established by the American
Institute of Certified Public Accountants, and the standards applicable to attestation engagements contained
in Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the examination to obtain reasonable assurance about whether
effective internal control over financial reporting was maintained in all material respects. Our examination
included obtaining an understanding of internal control over financial reporting, assessing the risk that a
material weakness exists, and testing and evaluating the design and operating effectiveness of internal
control based on the assessed risk. Our examination also included performing such other procedures as we
considered necessary in the circumstances. We believe that our examination provides a reasonable basis for
our opinion.

An entity’s internal control over financial reporting is a process effected by those charged with governance,
management, and other personnel, designed to provide reasonable assurance regarding the preparation of
reliable financial statements in accordance with U.S. generally accepted accounting principles. An entity’s
internal control over financial reporting includes those policies and procedures that (1) pertain to the
maintenance of records that, in reasonable detail, accurately and fairly reflect the transactions and
dispositions of the assets of the entity; (2) provide reasonable assurance that transactions are recorded as
necessary to permit preparation of financial statements in accordance with U.S. generally accepted
accounting principles, and that receipts and expenditures of the entity are being made only in accordance
with authorizations of management and those charged with governance; and (3) provide reasonable
assurance regarding prevention, or timely detection and correction of unauthorized acquisition, use, or
disposition of the entity’s assets that could have a material effect on the financial statements.

Because of its inherent limitations, internal control over financial reporting may not prevent, or detect and
correct misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to
the risk that controls may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate.




                                                                 16
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
In our opinion, management’s assertion that the Bureau of Engraving and Printing maintained effective
internal control over financial reporting as of September 30, 2011 is fairly stated, in all material respects,
based on the criteria established in Internal Control – Integrated Framework issued by COSO.

In accordance with Government Auditing Standards, we are required to report findings of significant
deficiencies. A significant deficiency is a deficiency, or a combination of deficiencies, in internal control
that is less severe than a material weakness in internal control over financial reporting, yet important
enough to merit attention by those charged with governance. We consider the deficiency in the Bureau’s
internal control described in Exhibit I of this report to be a significant deficiency. The Bureau’s response to
the finding identified in our examination is included in Exhibit I. We did not examine the Bureau’s
response and, accordingly, we express no opinion on the response.

We also have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended, the balance sheets of the
Bureau as of September 30, 2011 and 2010, and the related statements of operations and cumulative results
of operations, and cash flows, of the Bureau and our report dated December 14, 2011 expressed an
unqualified opinion.

We noted certain additional matters that we have reported to management of the Bureau in a separate letter
dated December 14, 2011.



December 14, 2011




                                                      17
                                                                                                  Exhibit I

                                 Fiscal Year 2011 Significant Deficiency


Internal Control Over Year End Liability Accruals Needs Improvement

During our test work over the Bureau of Engraving and Printing’s (the Bureau) year end liability accruals,
we noted the following two instances where the Bureau’s supervisory review controls did not detect
overstatements in its liability accruals.

During fiscal year 2011, the Federal Reserve Bank (Federal Reserve) discontinued having the Bureau
provide public education services on its behalf. Pursuant to this agreement, the Bureau was to provide the
Federal Reserve with a final accounting associated with providing such services as of the fiscal year end.
The Bureau completed its internal analysis which resulted in its recording an amount due to the Federal
Reserve of approximately $10.7 million as of September 30, 2011. During our audit, we noted that the
Bureau inadvertently excluded approximately $5.5 million in program expenses from its analysis, resulting
in an overstatement of accounts payable and an understatement of revenues of approximately $5.5 million
in its draft financial statements as of and for the year ended September 30, 2011.

At the end of each fiscal year the Bureau’s Office of Financial Management inquires of other Bureau
divisions regarding un-invoiced goods or services received for which the Bureau should accrue a liability.
The Bureau incurs a liability once the terms of the contract between the Bureau and its supplier have been
met. During our audit, we noted that the specific terms of two contracts had not been met as of
September 30, 2011, resulting in an overstatement of accounts payable and property, plant and equipment
by $1.4 million as of September 30, 2011.

OMB Circular A-123 states, “Management is responsible for developing and maintaining effective internal
control. Effective internal control provides assurance that significant weaknesses in the design or
operation of internal control, that could adversely affect the agency’s ability to meet its objectives, would
be prevented or detected in a timely manner.”

In both conditions noted, the initial analysis to determine the payable amount was incorrectly performed,
and the review of the analysis was not sufficient to identify the error. The total error was subsequently
corrected by the Bureau.

We recommend the Bureau (1) develop and implement policies and procedures to improve the reliability of
reviews over significant and unusual accounting transactions and reconciliations by individuals most
knowledgeable of the subject matter, (2) ensure policies and procedures are followed to verify all
significant and unusual accounting transactions and reconciliations were performed properly, (3) require
supporting documentation be provided with, and be examined as part of, the Bureau’s review of year end
specific item accounts payable estimates, and (4) ensure all year end specific item accounts payable
estimates are adequately supported and properly accrued.

Management Response:

Management concurs with the recommendation; and will take the necessary steps to implement policies
and procedures requiring additional reviews of significant and unusual accounting transactions and
reconciliations by individuals most knowledgeable of the subject matter.

Additionally, management’s current process for obtaining and documenting support for year-end accounts
payable estimates will be evaluated and appropriate steps will be taken to ensure the reasonableness of
management estimates and assumptions.

                                                     18
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the balance sheets of the Bureau of Engraving and Printing (Bureau) as of September 30,
2011 and 2010, and the related statements of operations and cumulative results of operations and cash
flows (hereinafter referred to as “financial statements”) for the years then ended, and have issued our
report thereon dated December 14, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Bureau is responsible for complying with laws, regulations, and contracts
applicable to the Bureau. As part of obtaining reasonable assurance about whether the Bureau’s financial
statements are free of material misstatement, we performed tests of the Bureau’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the Bureau. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bureau’s management, the Department of
the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.



December 14, 2011




                                                               19
                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
